THE KATRIEL LAW FIRM
2262 Carmel Valley Road., Suite 201
Del Mar, California 92014
Telephone: (619) 363-3333

May 14, 2020

BY OVERNIGHT MAIL AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Lugo v. United States, No. 19-855
Dear Mr. Harris:
I represent petitioner in the above-captioned matter. Enclosed is the Reply Brief for
Petitioner. In accordance with this Court’s Rule 15.5, petitioner hereby waives the 14-day
waiting period for distributing the petition, respondent’s brief, and the reply brief to the Court.
Should you need any additional information, please do not hesitate to let me know.

Sincerely,

Roy A. Katriel

Cc: Noel J. Francisco (by U.S. and electronic mail)

